No.

IN THE SUPREME COURT OF THE UNITED STATES
ZACHARY GAGE PEBLEY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Julia L. O’Connell
Federal Public Defender
Barbara L. Woltz
(Counsel of Record)
Research and Writing Specialist
Barbara_L_Woltz@fd.org
Office of the Federal Public Defender
Eastern District of Oklahoma
627 West Broadway
Muskogee, Oklahoma 74401-6220
(918) 687-2430
Counsel for Petitioner
July 9, 2021

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Zachary Gage Pebley, an indigent party in this case, moves for leave to proceed
in forma pauperis for the purpose of filing a Petition for Writ of Certiorari.
Petitioner’s financial indigency was recognized by the United States District Court for the
Eastern District of Oklahoma, which on October 30, 2019 appointed the Office of Federal Public
Defender identified below to represent Petitioner pursuant to the Criminal Justice Act (18 U.S.C.
§3006A). A copy of the appointment order is attached to this Motion. On May 26, 2020, United
States Court of Appeals for the Tenth Circuit granted the motion of the Office of Federal Public
Defender to continue its appointment to represent Petitioner in that court. Since the original
appointment on October 30, 2019, the Petitioner has since been continuously represented by his
appointed counsel.
Petitioner requests that this Court grant leave to proceed in forma pauperis pursuant to
Supreme Court Rule 39.1, and permit Petitioner to submit his Petition for Writ of Certiorari
without prepayment of filing fees and costs.
Respectfully submitted,
s/ Barbara L. Woltz
Barbara L. Woltz
Okla. Bar Assn. No. 12535
Office of Federal Public Defender
Eastern District of Oklahoma
627 West Broadway
Muskogee, Oklahoma 74401-6220
Phone: (918) 687-2430
Barbara_L_Woltz@fd.org
Counsel of record for Petitioner

6:19-cr-00083-RAW Document 11 Filed in ED/OK on 10/30/19 Page 1 of 1
ATTACHMENT TO MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

6:19-cr-00083-RAW Document 11-1 Filed in ED/OK on 10/30/19 Page 1 of 1
ATTACHMENT TO MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

